Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 ARKANSAS STATE MEDICAID
   FRAUD CONTROL UNIT:
    2013 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2013
                       OEI-06-12-00720
EXECUTIVE SUMMARY: ARKANSAS STATE MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-06-12-00720

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units (MFCU or
Unit) with respect to Federal grant compliance. As part of this oversight, OIG conducts periodic
reviews of all Units and prepares public reports based on these reviews. The reviews describe
the Units’ caseloads; assess performance in accordance with the 12 MFCU performance
standards; identify any opportunities for improvement; and identify any instances of
noncompliance with laws, regulations, and policy transmittals.

HOW WE DID THIS STUDY
We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures and documentation of the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of Unit
staff; (5) structured interviews with the Unit director and supervisors; (6) an onsite review of
case files; and (7) an onsite review of Unit operations conducted in January 2013.

WHAT WE FOUND
For fiscal years (FY) 2010 through 2012, the Arkansas Unit obtained 27 criminal convictions
and 43 civil settlements, and reported recoveries of nearly $42 million. Our review of
compliance issues found no evidence of significant noncompliance with applicable laws,
regulations, or policy transmittals. However, we identified six instances in which the Unit did
not fully adhere to performance standards. Opportunities for improvement in the Unit’s
adherence to the performance standards include, but are not limited to, establishing policies and
procedures specific to the Unit’s operations, updating the Unit’s memorandum of understanding
with the State Medicaid agency to reflect current law, working with the State Medicaid agency to
ensure an adequate number of referrals from the State Medicaid agency, including supervisory
review and approval documentation in case files, ensuring indirect costs are correctly reported,
and establishing and maintaining an annual training plan.

WHAT WE RECOMMEND
On the basis of these findings, we recommend specific improvements to ensure that the Arkansas
Unit fully adheres to each of the performance standards for which we had findings. The Unit
concurred with each of our six recommendations.
TABLE OF CONTENTS
Objective ..................................................................................................................1 

Background ..............................................................................................................1 

Methodology ............................................................................................................3 

Findings....................................................................................................................6 

           For FYs 2010 through 2012, the Arkansas Unit obtained 27 criminal                                                              

           convictions and 43 civil settlements, and reported recoveries of
           nearly $42 million ........................................................................................6 

           The Unit did not have policies and procedures specific to its operations ....6 

           The Unit’s MOU with the State Medicaid agency had not been                                                             

           updated to reflect current law ....................................................................7 

           Although the Unit worked with the State Medicaid agency, the Unit 

           accepted only 10 fraud referrals over our 3-year review period ..................7 

           The Unit’s case files lacked evidence of supervisory review                                                                

           and approval.................................................................................................8 

           The Unit incorrectly reported indirect costs ................................................8 

           The Unit did not maintain an annual training plan ......................................9 

           The Unit reported beneficial outreach activities..........................................9

Conclusion and Recommendations ........................................................................10 

Appendixes ............................................................................................................12 

           A: 	1994 Performance Standards ...............................................................12 

           B: 	2012 Performance Standards................................................................16 

           C: 	Point Estimates and Confidence Intervals Based on 

              Case File Reviews.................................................................................23 

           D: Unit Comments ....................................................................................24 

Acknowledgments..................................................................................................28 

                  OBJECTIVE
                  To conduct an onsite review of the Arkansas State Medicaid Fraud Control
                  Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate and prosecute fraud and patient abuse and neglect by Medicaid
                  providers under State law.1 Pursuant to Title XIX of the Social Security
                  Act (SSA), each State must maintain a certified Unit unless the Secretary
                  of Health and Human Services (HHS) determines that operation of a Unit
                  would not be cost-effective because (1) minimal Medicaid fraud exists in
                  that State and (2) the State has other, adequate safeguards to protect
                  Medicaid beneficiaries from abuse and neglect2. Currently, 49 States and
                  the District of Columbia (States) have created such Units.3,4 In Federal
                  fiscal year (FY) 2012, combined Federal and State grant expenditures for
                  the Units totaled $217.4 million.5
                  To carry out its duties and responsibilities in an effective and efficient
                  manner, each Unit must employ an interdisciplinary staff that consists of
                  at least an investigator, an auditor, and an attorney.6 Unit staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution and/or civil action. In
                  FY 2012, the 50 Units collectively reported 1,337 convictions, 823 civil
                  settlements or judgments, and recoveries of approximately $2.9 billion.7, 8



                  1
                    Social Security Act (SSA) § 1903(q).

                  2
                    Ibid., §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that 

                  the Unit’s responsibilities may include reviewing complaints of misappropriation of

                  patients’ private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                  4
                    Office of Inspector General (OIG) Medicaid Fraud Control Units. Accessed at 

                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 22, 2013. 

                  5
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on March 8, 2013. 

                  6
                    SSA § 1903(q)(6) and 42 CFR § 1007.13.

                  7
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and 

                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on March 8, 2013. 

                  8
                    Ibid. Recoveries are defined as the amount of money that defendants are required to 

                  pay as a result of a settlement, judgment, or pre-filing settlement in criminal and civil 

                  cases and may not reflect actual collections. Recoveries may involve cases that include

                  participation by other Federal and State agencies. 



Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                            1
                  Units are required to have either Statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an office with
                  such authority.9 If the Unit is in a State which does not have an entity with
                  statewide authority to criminally prosecute individuals, the Unit must have
                  formal procedures approved by OIG to assure that cases are referred to
                  State entities with criminal prosecutorial authority and assure that the State
                  entities cooperate with the Unit.10 In Arkansas and 43 other States, the
                  Units are located within offices of State Attorneys General; in the
                  remaining 6 States, the Units are located in other State agencies.11 Each
                  Unit must be a single, identifiable entity of State government, distinct
                  from the single State Medicaid agency, and must develop a formal
                  agreement (i.e., MOU) that describes its relationship with that agency.12
                  Oversight of the MFCU Program
                  The Secretary of HHS delegated to OIG the authority to annually certify the
                  Units and to administer grant awards to reimburse States for a percentage of
                  their costs of operating certified Units.13 All Units are currently federally
                  funded on a 75-percent matching basis, with the States contributing the
                  remaining 25 percent.14 To receive Federal reimbursement, each Unit must
                  submit an application to OIG.15 OIG reviews the application and notifies the
                  Unit if the application is approved and the Unit is certified. Approval and
                  certification are for a 1-year period; the Unit must be recertified each year
                  thereafter.16
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.17 OIG
                  developed and issued 12 performance standards to define the criteria it
                  applies in assessing whether a Unit is effectively carrying out statutory




                  9
                    SSA § 1903(q)(1).
                  10
                     SSA § 1903(q)(1)(B).
                  11
                     Office of Inspector General (OIG) Medicaid Fraud Control Units. Accessed at
                  http://oig.hhs.gov/fraud/medicaid-fraud-control-units-mfcu/index.asp on May 22, 2013.
                  12
                     SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).
                  13
                     The portion of funds reimbursed to States by the Federal Government for its share of
                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
                  Financial Participation (FFP).
                  14
                     SSA § 1903(a)(6)(B).
                  15
                     42 CFR § 1007.15(a).
                  16
                     42 CFR § 1007.15(b) and (c).
                  17
                     SSA § 1902(a)(61).


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                            2
                  functions and meeting program requirements.18 Examples include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all professional disciplines, and
                  establishing policy and procedure manuals to reflect the Unit’s operations.
                  See Appendix A for a complete list of the 1994 performance standards used
                  for this review and Appendix B for a complete list of the 2012 performance
                  standards.
                  Arkansas Medicaid Program
                  The Arkansas Medicaid program is located within the Arkansas
                  Department of Human Services. The Arkansas Medicaid program works
                  with more than 12,000 providers to provide services to over
                  700,000 Arkansas Medicaid beneficiaries. Total Arkansas Medicaid
                  program expenditures for FY 2012 were nearly $4.4 billion.19
                  Arkansas Unit
                  The Arkansas Unit operates within the Arkansas Attorney General’s
                  Office, located in the State capital of Little Rock. The Unit expended a
                  total of $2.25 million in combined Federal and State funds for FY 2012.20
                  At the time of our January 2013 review, the Unit employed 22 staff
                  members including 1 Deputy Attorney General, 5 Assistant Attorney
                  Generals, 7 investigators, 3 support staff, 2 nurse investigators, 1 auditor,
                  1 case coordinator, and 1 paralegal. During our 3-year review period,
                  59 percent of the Unit’s open cases involved cases of patient abuse and
                  neglect, including cases of theft of patient funds. The remaining
                  41 percent of open cases involved fraud.
                  Previous Review
                  In 2008, OIG published an onsite review of the Arkansas Unit. In that
                  review, OIG found no significant issues with Arkansas’ adherence to the
                  performance standards.




                  18
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov/fraud/medicaid-
                  fraud-control-units-mfcu/files/Performance%20Standards.pdf on August 15, 2012. OIG
                  published revised performance standards, effective June 1, 2012. See 77 FR 32645
                  (June 1, 2012) for the new performance standards. Accessed at
                  http://oig.hhs.gov/authorities/docs/2012/PerformanceStandardsFinal060112.pdf on
                  August 15, 2012. For purposes of this review covering FYs 2010–2012, we relied on the
                  1994 performance standards unless changes in the performance standards were
                  significant for our review of a particular area.
                  19
                     OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures and
                  Statistics. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/expenditures_statistics/fy2012-statistical-chart.htm on March 8, 2013.
                  20
                     Ibid.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                      3
                  METHODOLOGY
                  Our review covered FYs 2010 through 2012. We based our review on an
                  analysis of data from seven sources: (1) a review of policies and
                  procedures and documentation of the Unit’s operations, staffing, and
                  caseload; (2) a review of financial documentation; (3) structured
                  interviews with key stakeholders; (4) a survey of Unit staff; (5) structured
                  interviews with the Unit’s director and supervisors; (6) an onsite review of
                  case files that were open in FYs 2010 through 2012; and (7) an onsite
                  review of Unit operations. We analyzed data from all seven sources to
                  describe the caseload; assess the performance of the Unit; identify any
                  opportunities for improvement; and identify any instances in which the
                  Unit did not fully meet the performance standards or was not operating in
                  accordance with laws, regulations, and policy transmittals.21 In addition,
                  we noted any practices that appeared to benefit the Unit. We based these
                  observations on statements from Unit staff, data analysis, and our own
                  judgment. We did not independently verify the effectiveness of these
                  practices, but included the information because it may be useful to other
                  Units in their operations. We conducted the onsite review in
                  January 2013.
                  Data Collection and Analysis
                  Unit Documentation Review. We reviewed policies, procedures, and
                  documentation of the Unit’s operations, staffing, and cases, including its
                  annual reports, quarterly statistical reports, and responses to recertification
                  questionnaires.
                  Review of Financial Documentation. We reviewed Unit policies and
                  procedures related to budgeting, accounting systems, cash management,
                  procurement, property, and personnel. We obtained the Unit’s claimed
                  grant expenditures for FYs 2010 through 2012 so that we could
                  (1) reconcile final Financial Status Reports and the supporting
                  documentation; (2) purposively select and review transactions within
                  categories of direct costs to determine whether costs were allowable; and
                  (3) verify that indirect costs were accurately computed using the approved
                  indirect cost rate. Finally, we verified that the Unit does not receive
                  program income directly from any of its cases.
                  Stakeholder Interviews. We conducted structured interviews with key
                  stakeholders who were familiar with the Unit operations. Specifically, we
                  interviewed staff from the Arkansas Department of Human Services
                  Medicaid Program Integrity Unit (hereafter referred to as the State

                  21
                     All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                           4
                  Medicaid agency or the State Medicaid agency Program Integrity Unit);
                  the Arkansas Department of Human Services, Office of Long Term Care;
                  an HHS OIG investigator who worked closely with the Unit during the
                  review period; the United States Attorney’s Office; and AdvanceMed, the
                  Zone Program Integrity Coordinator that works with the Unit. These
                  interviews focused on the Unit’s interaction with external agencies.
                  Unit Staff Survey. We administered an electronic survey to Unit
                  nonmanagerial staff. Our questions focused on operations, opportunities
                  for improvement, and effective practices.
                  Unit Director, Supervisor, and Staff Interviews. We conducted structured
                  interviews with the Deputy Attorney General (who serves as the Unit
                  director), the Assistant Deputy Attorney General, the Chief Investigator,
                  the Chief Auditor, and the Chief Deputy Attorney (the supervisor of the
                  Unit director). We asked respondents to provide any additional
                  information to better illustrate the Unit’s operations, identify opportunities
                  for improvement and effective practices, and clarify information we
                  obtained from other data sources.
                  Case File Review. We selected a statistically valid, simple random sample
                  of 100 case files from the 288 cases open at some point during FYs 2010
                  through 2012. We reviewed all 100 of these sampled case files for the
                  following issues: documentation of supervisory approval for the opening
                  and closing of cases, periodic supervisory reviews, timeliness of case
                  development, and the Unit’s processes for monitoring the status and
                  outcomes of cases. From these 100 case files, we selected a further
                  random sample of 50 files for a more in-depth review of selected issues,
                  such as the timeliness of investigations. See Appendix C for point
                  estimates and corresponding 95-percent confidence intervals.
                  Unit Operations Review. We reviewed the Unit’s operations during our
                  onsite visit. Specifically, we reviewed the process for receiving referrals,
                  electronic case management, security of case files, and general functioning
                  of the Unit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)               5
                  FINDINGS
                  For FYs 2010 through 2012, the Arkansas Unit
                  obtained 27 criminal convictions and 43 civil
                  settlements, and reported recoveries of nearly
                  $42 million
                  For FYs 2010 through 2012, the Unit filed criminal charges against
                  47 defendants and obtained 27 criminal convictions. Over half
                  (18 of 27) of these convictions involved patient abuse and neglect
                  including theft of patient funds, while the remaining 9 convictions
                  involved fraud. Additionally, the Unit obtained just over $639,000 in
                  criminal restitution. See Table 1.
                  Table 1: Unit Criminal Charges, Convictions, and Recoveries,
                  FYs 2010–2012

                    Criminal Investigations                                             Charges                       Convictions
                    Fraud                                                                       15                             9
                    Patient Abuse and Neglect                                                   32                            18
                       Total                                                                    47                            27
                    Criminal Recoveries Obtained                                                                        $639,026

                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2010 through 2012, 2013.


                  The Unit obtained 43 civil settlements, resulting in more than $41 million
                  in civil recoveries. Eighty-seven percent (about $36 million) of these
                  settlements were recoveries from global settlements.22 See Table 2.
                  Table 2: Unit Civil Recoveries, FYs 2010–2012
                                                                                                                           Total
                    Recovery Type                                  FY 2010            FY 2011           FY 2012
                                                                                                                      Recoveries
                    Global                                    $10,176,871        $10,238,681         $15,400,578      $35,816,130
                    State Only                                  $1,434,742            $23,661         $3,745,347       $5,203,750
                       Total                                  $11,611,613        $10,262,342         $19,145,925      $41,019,880

                  Source: OIG analysis of Unit data and quarterly statistical reports, FYs 2010 through 2012, 2013.


                  The Unit did not have policies and procedures
                  specific to its operations
                  According to Performance Standard 3, the Unit should establish policies
                  and procedures for its operations. The Unit used the Arkansas Office of
                  the Attorney General handbook as guidance for administrative policies,
                  such as those relating to hiring employees and employee benefits.
                  However, at the time of our review, the Unit did not have policies and


                  22
                     Global settlements originate from civil false claims cases involving the Federal
                  Department of Justice and other State MFCUs.


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                                               6
                  procedures specific to its operations such as the investigation and
                  prosecution of Medicaid fraud and patient abuse and neglect. During our
                  onsite review, the Unit director indicated that the Unit was in the process
                  of creating a MFCU-specific operations manual.

                  The Unit’s MOU with the State Medicaid agency had
                  not been updated to reflect current law
                  According to Performance Standard 10, the Unit should periodically
                  review its MOU with the single State Medicaid agency to ensure it reflects
                  current law and practice. The Unit last updated its MOU with the State
                  Medicaid agency in 2010. However, at the time of our January 2013
                  review, the MOU did not include a law that went into effect in 2011.
                  Specifically, the MOU did not include language to address 42 CFR
                  § 455.23, the regulation requiring payment suspension of any provider
                  against whom there is a credible allegation of fraud (effective March 25,
                  2011).23 The Unit director reported that he had sent the agency language
                  regarding this new regulation to incorporate into the existing MOU in the
                  months prior to our onsite review.

                  Although the Unit worked with the State Medicaid
                  agency, the Unit accepted only 10 fraud referrals over
                  our 3-year review period
                  According to Performance Standard 4, the Unit should take steps to ensure
                  that it maintains an adequate workload through referrals from the single
                  state agency and other sources. The State Medicaid agency Program
                  Integrity Unit director and the Unit director both reported a working
                  relationship that included communication and joint participation on
                  healthcare fraud task forces. The two entities described meeting at least
                  monthly to discuss potential fraud referrals from the State Medicaid
                  agency to the Unit. Upon discussing a potential referral, the Unit would
                  determine whether to take the referrals as a case. During the 3-year
                  review period, the Unit accepted only 10 fraud referrals from the State
                  Medicaid agency. Although the performance standard does not specify
                  how many referrals constitute an adequate number, both entities agreed
                  that 10 was a relatively small number for a 3-year period given the size of
                  the State program and the number of participants and providers.




                  23
                     42 CFR §455.23. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-units-
                  mfcu/45523.asp on February 28, 2013.


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                           7
                  The Unit’s case files lacked evidence of supervisory
                  review and approval
                  According to Performance Standard 6, the Unit should have a continuous
                  case flow and cases should be completed in a reasonable time.
                  Performance Standard 6 further specifies that Unit supervisors should
                  approve the opening and closing of cases, conduct periodic case reviews,
                  and note their reviews in the case file. Our review of 100 case files found
                  that case files often lacked documentation that a supervisor reviewed the
                  case file and occasionally lacked documentation that a supervisor
                  approved the opening of the case. See Appendix C for point estimates and
                  corresponding 95-percent confidence intervals.
                  Documentation of supervisory reviews. Supervisors should periodically
                  conduct case reviews and note their reviews in the case files. Sixty-four
                  percent of case files did not contain documentation indicating any
                  supervisory reviews. Of these case files, 17 percent may not have
                  received a supervisory review because they were open less than 90 days.
                  However, 83 percent of case files were open for longer than 90 days and
                  did not contain evidence of a supervisory review. The Unit director noted
                  that investigators and attorneys email weekly case updates to their
                  supervisors, which has served as the Unit’s process for supervisory review
                  of case files. However, these weekly emails did not include a supervisory
                  review of the case files and were not documented in the case files.
                  Thirty-six percent of case files that contained evidence of a supervisory
                  review. Most of these case files (92 percent) contained evidence of one
                  supervisory review, and 8 percent contained evidence of more than one
                  supervisory review of the case.
                  Documentation of supervisory approval. Supervisors should approve the
                  opening and closing of investigative cases. Fourteen percent of the case
                  files lacked documentation indicating supervisory approval to open the
                  case. Four percent of case files lacked documentation indicating
                  supervisory approval to close the case.

                  The Unit incorrectly reported indirect costs
                  According to Performance Standard 11, the Unit director should exercise
                  proper fiscal control over the unit resources, such as maintaining an
                  equipment inventory and applying accepted accounting principles in its
                  control of Unit funding. We found that the Unit incorrectly reported




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)              8
                  indirect costs.24 Aside from cost reporting, we did not identify any
                  deficiencies with internal controls related to accounting; budgeting;
                  personnel; procurement; and property and equipment.

                  The Unit did not maintain an annual training plan
                  According to Performance Standard 12, the Unit should maintain an
                  annual training plan for all professional disciplines. Specifically, the Unit
                  should have a training plan that includes a minimum number of training
                  hours and the Unit should make funds available for training. The Unit
                  should also ensure that professional staff meet continuing education
                  standards and that the training supports the Unit’s mission. Although Unit
                  staff regularly attended training paid for by the Unit, such as courses
                  covering medical records laws in Arkansas and the National Association
                  of Medicaid Fraud Control Units annual training, the Unit did not have a
                  training plan and did not track Unit staff attainment of continuing
                  education hours.25

                  The Unit reported beneficial outreach activities
                  The Unit engaged in outreach activities that built relationships with
                  stakeholders and aided in the mission of the Unit. For example, the Unit
                  director reported that veteran Unit staff were often asked to lead training
                  relevant to Unit work, such as a training session by Unit investigators
                  conducted for the Office of Long Term Care. The Office of Long Term
                  Care representative reported that Unit investigators trained nursing home
                  surveyors on topics such as how to interview beneficiaries and how to
                  develop a potential referral.




                  24
                     2 CFR § 255 Appendix E, (B)(2) states that the indirect cost rate is a device for
                  determining in a reasonable manner the proportion of indirect costs each program should
                  bear. It is the ratio (expressed as a percentage) of the indirect costs to a direct cost base.
                  25
                     Although we reviewed training records, we did not evaluate the staff’s professional
                  qualifications. Rather, we applied the performance standards to evaluate whether the
                  Unit maintained a formal training plan for each professional discipline and assessed
                  training opportunities specific to Unit operations. We recognize that attorneys,
                  investigators, and auditors receive professional and law enforcement training, and that the
                  lack of an annual training plan does not suggest that professional staff are unqualified.


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                              9
                  CONCLUSION AND RECOMMENDATIONS
                  For FYs 2010 through 2012, the Arkansas Unit obtained 27 criminal
                  convictions and 43 civil settlements, and reported recoveries of nearly
                  $42 million. Unit staff and stakeholders reported beneficial outreach
                  activities.
                  Our review of compliance issues found no evidence of significant
                  noncompliance with applicable laws or regulations. However, we
                  identified six instances in which the Unit did not fully adhere to
                  Performance Standards. We recommend that the Arkansas Unit:
                  Establish Policies and Procedures Specific To Unit Operations
                  The Unit’s policies and procedures should include provisions relating to
                  Unit organization, statutory authorities, investigative and litigation
                  processes. The policies and procedures should also include case
                  management processes such as periodic supervisory review of case files.
                  Update Its MOU With The State Medicaid Agency
                  The Unit should update its MOU with the State Medicaid agency to reflect
                  current law. Specifically, the entities should add language to address
                  42 CFR § 455.23, the regulation that allows for suspending provider
                  payments based on a credible allegation of fraud.
                  Work With The State Medicaid Agency To Ensure An Adequate
                  Number of Referrals from the State Medicaid Agency
                  Given that the Unit received only 10 fraud referrals from the State
                  Medicaid agency over a 3-year period, the Unit should work with the State
                  Medicaid agency to ensure it receives an adequate number of referrals.
                  Ensure That All Case Files Contain Evidence of Supervisory
                  Approvals and Reviews
                  Unit supervisors should approve the opening and closing of all cases,
                  review all cases periodically, and document these activities in the case
                  files.
                  Ensure Indirect Costs Are Correctly Reported
                  The Unit should work with its parent agency, the Arkansas Attorney
                  General’s Office, to ensure indirect costs are correctly reported.
                  Establish an Annual Training Plan
                  The Unit should establish an annual training plan consistent with the terms
                  in the performance standard. The training plan should include a minimum
                  number of hours training requirement for all professional disciplines and a
                  system to ensure professional staff meet continuing education standards.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)             10
                  UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  The Unit concurred with all of our six recommendations.
                  Regarding our first recommendation, the Unit stated that it has drafted a
                  MFCU-specific policies and procedures handbook that outlines Medicaid
                  fraud investigations, criminal prosecutions, abuse and neglect
                  investigations, and litigation or settlements. The Unit indicated the
                  handbook would be completed soon.
                  Regarding our second recommendation, the Unit stated that it has updated
                  its MOU with the State Medicaid agency and included language that
                  addressed 42 CFR § 455.23, a regulation that became effective in
                  March 2011 and allows for suspending provider payments based on a
                  credible allegation of fraud. The Unit noted that although the prior MOU
                  did not contain language specific to 42 CFR § 455.23, both parties of the
                  MOU had been operating under the new regulation since it became
                  effective.
                  Regarding our third recommendation, the Unit stated that it has begun to
                  redouble its efforts to ensure that the State agency refers meritorious cases
                  to the Unit. The Unit also noted that since our onsite review, the Arkansas
                  legislature created the Office of the Medicaid Inspector General, with
                  which the Unit will pursue referrals.
                  Regarding our fourth recommendation, the Unit stated that it will develop
                  an intake form or checklist to ensure that supervisory approval of the
                  opening of cases is documented in the case file. Additionally, the Unit
                  developed a form, to be kept in the case file, to ensure that all cases have a
                  supervisory review every 90 days.
                  Regarding our fifth recommendation, the Unit stated that it met with OIG
                  grantee oversight representatives to clarify reporting procedures and
                  attended a Web seminar on indirect costs.
                  Regarding our sixth recommendation, the Unit stated that the Unit director
                  is establishing a formal written plan that will be included in the
                  MFCU-specific handbook of policies and procedures.
                  The full text of the Unit’s comments is provided in Appendix D. We did
                  not make any changes to the report based on the Unit’s comments.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)              11
                  APPENDIX A
                  1994 Performance Standards
                  [59 Fed. Reg. 49080, Sept. 26, 1994]
                  1. 	A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                       a.	 The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                       b.	 The Unit must be separate and distinct from the single State
                           Medicaid agency.
                       c.	 The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                       d.	 The Unit must submit annual reports, with appropriate 

                           certifications, on a timely basis.

                       e.	 The Unit must submit quarterly reports on a timely basis.
                       f.	 The Unit must comply with the Americans with Disabilities Act,
                           the Equal Employment opportunity requirements, the Drug Free
                           workplace requirements, Federal lobbying restrictions, and other
                           such rules that are made conditions of the grant.
                  2. 	A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the OIG?
                       b.	 Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                       c.	 Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                       d.	 Are the Unit office locations established on a rational basis and are
                           such locations appropriately staffed?
                  3. 	A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit have policy and procedure manuals?




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)              12
                       b.	 Is an adequate, computerized case management and tracking
                           system in place?
                  4. 	A Unit should take steps to ensure that it maintains an adequate
                      workload through referrals from the single State agency and other
                      sources. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit work with the single State Medicaid agency to
                           ensure adequate fraud referrals?
                       b.	 Does the Unit work with other agencies to encourage fraud 

                           referrals? 

                       c.	 Does the Unit generate any of its own fraud cases?
                       d.	 Does the Unit ensure that adequate referrals of patient abuse
                           complaints are received from all sources?
                  5. 	A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a.	 Does the Unit seek to have a mix of cases among all types of
                           providers in the State?
                       b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                           patient abuse cases?
                       c.	 Does the Unit seek to have a mix of cases that reflect the 

                           proportion of Medicaid expenditures for particular provider 

                           groups? 

                       d.	 Are there any special Unit initiatives targeting specific provider
                           types that affect case mix?
                       e.	 Does the Unit consider civil and administrative remedies when
                           appropriate?
                  6. 	A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a.	 Is each stage of an investigation and prosecution completed in an
                           appropriate time frame?
                       b.	 Are supervisors approving the opening and closing of 

                           investigations?

                       c.	 Are supervisory reviews conducted periodically and noted in the
                           case file?



Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                13
                  7. A Unit should have a process for monitoring the outcome of cases.
                     In meeting this standard, the following performance indicators will be
                     considered:
                       a.	 The number, age, and type of cases in inventory.
                       b.	 The number of referrals to other agencies for prosecution.
                       c.	 The number of arrests and indictments.
                       d.	 The number of convictions.
                       e.	 The amount of overpayments identified.
                       f.	 The amount of fines and restitution ordered.
                       g.	 The amount of civil recoveries.
                       h.	 The numbers of administrative sanctions imposed.
                  8. 	A Unit will cooperate with the OIG and other Federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a.	 Does the Unit communicate effectively with the OIG and other
                           Federal agencies in investigating or prosecuting health care fraud
                           in their State?
                       b.	 Does the Unit provide OIG regional management, and other
                           Federal agencies, where appropriate, with timely information
                           concerning significant actions in all cases being pursued by the
                           Unit?
                       c.	 Does the Unit have an effective procedure for referring cases,
                           when appropriate, to Federal agencies for investigation and other
                           action?
                       d.	 Does the Unit transmit to the OIG, for purposes of program
                           exclusions under section 1128 of the Social Security Act, reports
                           of convictions, and copies of Judgment and Sentence or other
                           acceptable documentation within 30 days or other reasonable time
                           period?
                  9. 	A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a.	 Does the Unit recommend amendments to the enforcement
                           provisions of the State's statutes when necessary and appropriate to
                           do so?



Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)               14
                       b.	 Does the Unit provide program recommendations to single State
                           agency when appropriate?
                       c.	 Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                    10. 	A Unit should periodically review its memorandum of
                         understanding (MOU) with the single State Medicaid agency and
                         seek amendments, as necessary, to ensure it reflects current law
                         and practice. In meeting this standard, the following performance
                         indicators will be considered:
                       a.	 Is the MOU more than 5 years old?
                       b.	 Does the MOU meet Federal legal requirements?
                       c.	 Does the MOU address cross-training with the fraud detection staff
                           of the State Medicaid agency?
                       d.	 Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                  11. 	The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a.	 Does the Unit director receive on a timely basis copies of all fiscal
                           and administrative reports concerning Unit expenditures from the
                           State parent agency?
                       b.	 Does the Unit maintain an equipment inventory?
                       c.	 Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                  12. 	A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a.	 Does the Unit have a training plan in place and funds available to
                           fully implement the plan?
                       b.	 Does the Unit have a minimum number of hours training
                           requirement for each professional discipline, and does the staff
                           comply with the requirement?
                       c.	 Are continuing education standards met for professional staff?
                       d.	 Does the training undertaken by staff aid to the mission of the
                           Unit?



Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)               15
                  APPENDIX B
                  2012 Performance Standards
                  [77 Fed. Reg. 32645, June 1, 2012]
                  1. 	A unit conforms with all applicable statutes, regulations, and
                      policy directives, including:
                       a.	 Section 1903(q) of the Social Security Act, containing the basic
                           requirements for operation of a MFCU;
                       b.	 Regulations for operation of a MFCU contained in 42 CFR 

                           part 1007; 

                       c.	 Grant administration requirements at 45 CFR part 92 and Federal
                           cost principles at 2 CFR part 225;
                       d.	 OIG policy transmittals as maintained on the OIG Web site; and
                       e.	 Terms and conditions of the notice of the grant award.
                  2. 	A Unit maintains reasonable staff levels and office locations in
                      relation to the State’s Medicaid program expenditures and in
                      accordance with staffing allocations approved in its budget.
                       a.	 The Unit employs the number of staff that is included in the Unit’s
                           budget estimate as approved by OIG.
                       b.	 The Unit employs a total number of professional staff that is
                           commensurate with the State’s total Medicaid program
                           expenditures and that enables the Unit to effectively investigate
                           and prosecute (or refer for prosecution) an appropriate volume of
                           case referrals and workload for both Medicaid fraud and patient
                           abuse and neglect.
                       c.	 The Unit employs an appropriate mix and number of attorneys,
                           auditors, investigators, and other professional staff that is both
                           commensurate with the State’s total Medicaid program
                           expenditures and that allows the Unit to effectively investigate and
                           prosecute (or refer for prosecution) an appropriate volume of case
                           referrals and workload for both Medicaid fraud and patient abuse
                           and neglect.
                       d.	 The Unit employs a number of support staff in relation to its
                           overall size that allows the Unit to operate effectively.
                       e.	 To the extent that a Unit maintains multiple office locations, such
                           locations are distributed throughout the State, and are adequately
                           staffed, commensurate with the volume of case referrals and
                           workload for each location.


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)              16
                  3. 	A Unit establishes written policies and procedures for its
                      operations and ensures that staff are familiar with, and adhere to,
                      policies and procedures.
                       a.	 The Unit has written guidelines or manuals that contain current
                           policies and procedures, consistent with these performance
                           standards, for the investigation and (for those Units with
                           prosecutorial authority) prosecution of Medicaid fraud and patient
                           abuse and neglect.
                       b.	 The Unit adheres to current policies and procedures in its 

                           operations. 

                       c.	 Procedures include a process for referring cases, when appropriate,
                           to Federal and State agencies. Referrals to State agencies,
                           including the State Medicaid agency, should identify whether
                           further investigation or other administrative action is warranted,
                           such as the collection of overpayments or suspension of payments.
                       d.	 Written guidelines and manuals are readily available to all Unit
                           staff, either online or in hard copy.
                       e.	 Policies and procedures address training standards for Unit 

                           employees. 

                  4. 	A Unit takes steps to maintain an adequate volume and quality of
                      referrals from the State Medicaid agency and other sources.
                       a.	 The Unit takes steps, such as the development of operational
                           protocols, to ensure that the State Medicaid agency, managed care
                           organizations, and other agencies refer to the Unit all suspected
                           provider fraud cases. Consistent with 42 CFR 1007.9(g), the Unit
                           provides timely written notice to the State Medicaid agency when
                           referred cases are accepted or declined for investigation.
                       b.	 The Unit provides periodic feedback to the State Medicaid agency
                           and other referral sources on the adequacy of both the volume and
                           quality of its referrals.
                       c.	 The Unit provides timely information to the State Medicaid or
                           other agency when the Medicaid or other agency requests
                           information on the status of MFCU investigations, including when
                           the Medicaid agency requests quarterly certification pursuant to
                           42 CFR 455.23(d)(3)(ii).
                       d.	 For those States in which the Unit has original jurisdiction to
                           investigate or prosecute patient abuse and neglect cases, the Unit
                           takes steps, such as the development of operational protocols, to
                           ensure that pertinent agencies refer such cases to the Unit,


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                17
                            consistent with patient confidentiality and consent. Pertinent
                            agencies vary by State but may include licensing and certification
                            agencies, the State Long Term Care Ombudsman, and adult
                            protective services offices.
                       e.	 The Unit provides timely information, when requested, to those
                           agencies identified in (D) above regarding the status of referrals.
                       f.	 The Unit takes steps, through public outreach or other means, to
                           encourage the public to refer cases to the Unit.
                  5. 	A Unit takes steps to maintain a continuous case flow and to
                      complete cases in an appropriate timeframe based on the
                      complexity of the cases.
                       a.	 Each stage of an investigation and prosecution is completed in an
                           appropriate timeframe.
                       b.	 Supervisors approve the opening and closing of all investigations
                           and review the progress of cases and take action as necessary to
                           ensure that each stage of an investigation and prosecution is
                           completed in an appropriate timeframe.
                       c.	 Delays to investigations and prosecutions are limited to situations
                           imposed by resource constraints or other exigencies.
                  6. 	A Unit’s case mix, as practicable, covers all significant provider
                      types and includes a balance of fraud and, where appropriate,
                      patient abuse and neglect cases.
                       a.	 The Unit seeks to have a mix of cases from all significant provider
                           types in the State.
                       b.	 For those States that rely substantially on managed care entities for
                           the provision of Medicaid services, the Unit includes a
                           commensurate number of managed care cases in its mix of cases.
                       c.	 The Unit seeks to allocate resources among provider types based
                           on levels of Medicaid expenditures or other risk factors. Special
                           Unit initiatives may focus on specific provider types.
                       d.	 As part of its case mix, the Unit maintains a balance of fraud and
                           patient abuse and neglect cases for those States in which the Unit
                           has original jurisdiction to investigate or prosecute patient abuse
                           and neglect cases.
                       e.	 As part of its case mix, the Unit seeks to maintain, consistent with
                           its legal authorities, a balance of criminal and civil fraud cases.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                 18
                  7. 	A Unit maintains case files in an effective manner and develops a
                      case management system that allows efficient access to case
                      information and other performance data.
                       a.	 Reviews by supervisors are conducted periodically, consistent with
                           MFCU policies and procedures, and are noted in the case file.
                       b.	 Case files include all relevant facts and information and justify the
                           opening and closing of the cases.
                       c.	 Significant documents, such as charging documents and settlement
                           agreements, are included in the file.
                       d.	 Interview summaries are written promptly, as defined by the Unit’s
                           policies and procedures.
                       e.	 The Unit has an information management system that manages and
                           tracks case information from initiation to resolution.
                       f.	 The Unit has an information management system that allows for
                           the monitoring and reporting of case information, including the
                           following:
                                 1.	 The number of cases opened and closed and the reason that
                                     cases are closed.
                                 2.	 The length of time taken to determine whether to open a
                                     case referred by the State Medicaid agency or other
                                     referring source.
                                 3.	 The number, age, and types of cases in the Unit’s
                                     inventory/docket.
                                 4.	 The number of referrals received by the Unit and the
                                     number of referrals by the Unit to other agencies.
                                 5.	 The dollar amount of overpayments identified.
                                 6.	 The number of cases criminally prosecuted by the Unit or
                                     referred to others for prosecution, the number of
                                     individuals or entities charged, and the number of pending
                                     prosecutions.
                                 7.	 The number of criminal convictions and the number of civil
                                     judgments.
                                 8.	 The dollar amount of fines, penalties, and restitution
                                     ordered in a criminal case and the dollar amount of
                                     recoveries and the types of relief obtained through civil
                                     judgments or prefiling settlements.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                 19
                  8. 	A Unit cooperates with OIG and other Federal agencies in the
                      investigation and prosecution of Medicaid and other health care
                      fraud.
                       a.	 The Unit communicates on a regular basis with OIG and other
                           Federal agencies investigating or prosecuting health care fraud in
                           the State.
                       b.	 The Unit cooperates and, as appropriate, coordinates with OIG’s
                           Office of Investigations and other Federal agencies on cases being
                           pursued jointly, cases involving the same suspects or allegations,
                           and cases that have been referred to the Unit by OIG or another
                           Federal agency.
                       c.	 The Unit makes available, to the extent authorized by law and
                           upon request by Federal investigators and prosecutors, all
                           information in its possession concerning provider fraud or fraud in
                           the administration of the Medicaid program.
                       d.	 For cases that require the granting of ‘‘extended jurisdiction’’ to
                           investigate Medicare or other Federal health care fraud, the Unit
                           seeks permission from OIG or other relevant agencies under
                           procedures as set by those agencies.
                       e.	 For cases that have civil fraud potential, the Unit investigates and
                           prosecutes such cases under State authority or refers such cases to
                           OIG or the U.S. Department of Justice.
                       f.	 The Unit transmits to OIG, for purposes of program exclusions
                           under section 1128 of the Social Security Act, all pertinent
                           information on MFCU convictions within 30 days of sentencing,
                           including charging documents, plea agreements, and sentencing
                           orders.
                       g.	 The Unit reports qualifying cases to the Healthcare Integrity &
                           Protection Databank, the National Practitioner Data Bank, or
                           successor data bases.
                  9. 	A Unit makes statutory or programmatic recommendations, when
                      warranted, to the State government.
                       a.	 The Unit, when warranted and appropriate, makes statutory
                           recommendations to the State legislature to improve the operation
                           of the Unit, including amendments to the enforcement provisions
                           of the State code.
                       b.	 The Unit, when warranted and appropriate, makes other regulatory
                           or administrative recommendations regarding program integrity
                           issues to the State Medicaid agency and to other agencies


Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                 20
                            responsible for Medicaid operations or funding. The Unit monitors
                            actions taken by the State legislature and the State Medicaid or
                            other agencies in response to recommendations.
                    10. 	A Unit periodically reviews its Memorandum of Understanding
                         (MOU) with the State Medicaid agency to ensure that it reflects
                         current practice, policy, and legal requirements.
                       a.	 The MFCU documents that it has reviewed the MOU at least every
                           5 years, and has renegotiated the MOU as necessary, to ensure that
                           it reflects current practice, policy, and legal requirements.
                       b.	 The MOU meets current Federal legal requirements as contained in
                           law or regulation, including 42 CFR 455.21, “Cooperation with
                           State Medicaid fraud control units,” and 42 CFR 455.23,
                           “Suspension of payments in cases of fraud.”
                       c.	 The MOU is consistent with current Federal and State policy,
                           including any policies issued by OIG or the Centers for Medicare
                           & Medicaid Services (CMS).
                       d.	 Consistent with Performance Standard 4, the MOU establishes a
                           process to ensure the receipt of an adequate volume and quality of
                           referrals to the Unit from the State Medicaid agency.
                       e.	 The MOU incorporates by reference the CMS Performance
                           Standard for Referrals of Suspected Fraud from a State Agency to
                           a Medicaid Fraud Control Unit.
                  11. 	A Unit exercises proper fiscal control over Unit resources.
                       a.	 The Unit promptly submits to OIG its preliminary budget
                           estimates, proposed budget, and Federal financial expenditure
                           reports.
                       b.	 The Unit maintains an equipment inventory that is updated 

                           regularly to reflect all property under the Unit’s control. 

                       c.	 The Unit maintains an effective time and attendance system and
                           personnel activity records.
                       d.	 The Unit applies generally accepted accounting principles in its
                           control of Unit funding.
                       e.	 The Unit employs a financial system in compliance with the
                           standards for financial management systems contained in 45 CFR
                           92.20.
                  12. 	A Unit conducts training that aids in the mission of the Unit.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)              21
                       a.	 The Unit maintains a training plan for each professional discipline
                           that includes an annual minimum number of training hours and that
                           is at least as stringent as required for professional certification.
                       b.	 The Unit ensures that professional staff comply with their training
                           plans and maintain records of their staff’s compliance.
                       c.	 Professional certifications are maintained for all staff, including
                           those that fulfill continuing education requirements.
                       d.	 The Unit participates in MFCU related training, including training
                           offered by OIG and other MFCUs, as such training is available and
                           as funding permits.
                       e.	 The Unit participates in cross training with the fraud detection staff
                           of the State Medicaid agency. As part of such training, Unit staff
                           provide training on the elements of successful fraud referrals and
                           receive training on the role and responsibilities of the State
                           Medicaid agency.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                 22
                                     APPENDIX C
                                     Point Estimates and Confidence Intervals Based on Case File
                                     Reviews
                                                                                                                     95-Percent
                                                                                                 Sample      Point   Confidence
 Estimate Characteristic                                                                                              Interval
                                                                                                   Size   Estimate
                                                                                                                     Lower   Upper

 Cases in which reviewers did not find evidence that the supervisor approved opening case           100     14.0%     7.9%   22.4%


 Cases in which reviewers did not find evidence that the supervisor approved closing case            67      4.5%     0.9%   12.5%


 Cases not containing documentation indicating at least one supervisory review                      100     64.0%    53.8%   73.4%


     Open for less than 90 days                                                                      64     17.2%     8.9%   28.7%


     Open for longer than 90 days                                                                    64     82.8%    71.3%   91.1%


 Cases not containing documentation indicating at least one periodic supervisory review             100     36.0%    26.6%   46.2%


     Contained only one supervisory review                                                           36     91.7%    77.5%   98.3%


     Contained more than one supervisory review                                                      36      8.3%     1.8%   22.5%


Source: Office of Inspector General analysis of Medicaid Fraud Control Unit case files, 2013.




              Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                        23
        APPENDIX D
        Unit Comments




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)   24
Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)   25
Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)   26
              Conclusion:

                     The Arkansas Medicaid Fraud Control Unit appreciates the efforts of HHS-OIG and
              especially appreciates the opportunity to continue with our most effective processes and
              procedures, and to improve in others. We concur with your recommendations and will
              implement necessary changes as set forth above in a manner consistent with the mission and
              goals of the Unit.

                                                       Sincerely,

                                                           /S/
                                                       Jeanette L. Hamilton
                                                       Deputy Attorney General




                                                           4




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)                           27
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Kevin Golladay, Regional
                  Inspector General for Evaluation and Inspections in the Dallas regional
                  office; Blaine Collins, Deputy Regional Inspector General; and
                  Ruth Ann Dorrill, Deputy Regional Inspector General.
                  Lyndsay Patty served as the Team Leader for this study. Other Office of
                  Evaluation and Inspections staff who conducted the study include
                  Ben Gaddis. Office of Investigations staff who provided support include
                  Kory Inkhen and Jason Weinstock. Central office staff who provided
                  support include Susan Burbach, Kevin Farber, Christine Moritz,
                  Richard Stern, and Sherri Weinstein.




Arkansas State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-06-12-00720)        28
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
